CASE NO. 20 -

IN THE
SUPREME COURT OF THE UNITED STATES

LEDINSON CHAVEZ
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

MOTION FOR LEAVE TO PROCEED INFORMA PAUPERIS

Petitioner, Ledinson Chavez, by counsel, pursuant to Supreme Court Rule 39,
seeks leave to file the attached Petition for Writ of Certiorari in forma pauperis.
Counsel was appointed by the United States District Court for the Western District
of Kentucky pursuant to 18 U.S. Code § 3006A. A copy of the order of appointment
is appended to this motion.

R. Kenyon Meyer
DINSMORE & SHOHL LLP
101 S. Fifth Street, Suite 2500
Louisville, Kentucky 40202
Phone:(502) 540-2300
Fax:(502) 540-2529
Email: kenyon.meyer@dinsmore.com
Attorney for Petitioner
Ledinson Chavez

Case 3:15-cr-00054-JHM Document 64 Filed 10/27/15 Page 1 of 6 PagelD #; 232

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CRIMINAL ACTION NUMBER: 3:15CR-54-JHM
PLAINTIFF

U NITED STATES OF AMERICA
vs.

DEFENDANT

LEDINSON CHAVEZ
ORDER

The above-styled case was called in open Court on October 27, 2015,
for the purposes of arraignment and a detention hearing. There appeared the
Defendant, Ledinson Chavez, in custody. Assistant United States Attorney
Lettricea Jefferson-Webb was present for the United States of America. The
proceedings were digitally recorded and interpreted by Vivien Keane, Spanish
Interpreter.
The Office of the Federal Defender having advised the Court of a
conflict prior to the hearing;
IT IS ORDERED that R. Kenyon Meyer from the Criminal Justice Act
attorney panel is appointed as counsel for the Defendant.
As to the matter of arraignment, Defendant, by counsel,
acknowledged his identity, acknowledged having been furnished a copy of the
I ndictment and advised of the nature of the charge contained therein.
Counsel on behalf of Defendant, waived formal reading of the

Case 3:15-cr-00054-JHM Document 64 Filed 10/27/15 Page 2 of 6 PagelD #: 233

I ndictment and entered a plea of NOT GUILTY to the charge contained therein.
IT IS HEREBY ORDERED as follows:
1.

This matter is assigned for trial by jury at Louisville,

Kentucky, on February 1

016, at 9:00 a.m. E.T., before the Honorable Joseph

H. McKinley Jr., United States District Judge. Counsel shall be in Court thirty
minutes before trial. The expected length of trial is eight (8) days.
2.

Pretrial discovery and inspection.

A.

No later than N

bet. 2, 2015, the United States Attorney

and defense counsel shall confer and, upon request, permit inspection and
copying or photographing of all matter subject to disclosure under F.R.Cr.P. 16.
B.

If additional discovery or inspection is sought, Defendant's

attorney shall confer with the appropriate Assistant United States Attorney with a
view to satisfying these requests in a cooperative atmosphere without recourse to
the Court. The request may be oral or written and the United States Attorney shall
respond in like manner.
(1)

Jencks Act material. Jencks Act material pursuant to 18
U.S.C. § 3500 is not required to be furnished to the
Defendant by the United States prior to trial.

(2)

Brady(Giglio) material. The government shall disclose
any Brady material of which it has knowledge in the
following manner:
(a)

pretrial disclosure of any Brady material
discoverable under Rule 16(a)(1);

(b)

disclosure of all other Brady material in time for
effective use at trial.

Case 3:15-cr-00054-JHM Document 64 Filed 10/27/15 Page: 3 of 6 PagelD #: 234

If the government has knowledge of Brady rule evidence
and is unsure as to the nature of the evidence and the
proper time for disclosure, then it may request an in
camera hearing for the purpose of resolving this issue;
failure to disclose Brady material at a time when it can be
effectively used at trial may result in a recess or a
continuance so that the Defendant may properly utilize
such evidence,
(3)

Rule 404(b)evidence, Upon service of a request from
the Defendant for notice of Rule 404(b) evidence of other
crimes, wrongs, or acts, the United States shall provide
notice within fourteen (14) days of trial of the general
nature of any such evidence it intends to introduce at trial
unless the Court excuses pretrial notice upon motion by
the United States showing good cause.

Any motion for additional discovery or inspection shall be made
on or before Novemt46,2015, after compliance by the parties with F.R.Cr.P.
16.

Any such motion shall contain a certification from counsel that informal,

extrajudicial efforts to resolve the discovery dispute have taken place and been
unsuccessful.
C. If required to be disclosed pursuant to F.R.Cr.P. 16(a)(1)(G) or
F.R.Cr,P. 16(b)(1)(C), any expert testimony the United States or Defendant
intends to use under Rules 702, 703, or 705 of the Federal Rules of Evidence
d uring its case-in-chief, including a summary of the witness's opinions, the bases
and reasons for those opinio s, and the witness's qualifications, shall be disclosed
on or before Novem

9, 2015.

Any expert testimony either the United States or Defendant intends to
3

Case 3:15-cr-00054-Jftvl Document 64 Filed 10/27/15 Pay.. 4 of 6 PagelD #: 235

use to rebut an expert under Rules 702, 703, or 705 of the Federal Rules of
Evidence, shall be disclosed on or •ef• - November 23, 2015.
D. The parties are reminded of the continuing duty under F.R.Cr.P.
16(c) to disclose additional discoverable evidence or material previously
requested or ordered.
3.

All motions to suppress evidence and any other motion

requiring a pretrial hearing, including any motions to exclude the testimony of an
expert witness pursuant to Daubert v. Merre

bow Pharmaceuticals, 509 U.S, 579

(1993), shall be filed no later than N v mber 30, 2015.
4.

No later than January 11, 2016, the parties shall file a trial

memorandum containing the following:
A.

The statute(s) involved and elements of the offense. (With
discussion of authorities, if disputed.)

B.

A statement of undisputed and disputed facts.

C.

A separate statement of each unresolved substantive issue of
law, with discussion and citations to authorities.

D.

A statement of evidentiary issues which it is reasonably
believed will be raised at trial together with citations to the
appropriate Federal Rules of Evidence and authorities in
support of the position taken.

E.

A statement of any known or reasonably anticipated potential
trial problems, or other issues which may assist the Court in
trying the case.

F.

Proposed substantive and special jury instructions with
citations to authorities. It is not necessary to submit standard
4

Case 3:15-cr-00054-JHM Document 64 Filed 10/27/15 Paye 5 of 6 PagelD #: 236

general instructions. Additional requests at trial are to be kept
to a minimum.
G.

Proposed voir dire questions.

H.

Counsel shall file an exhibit list and premark for identification
purposes all exhibits intended to be used at trial. Counsel
shall file a stipulation as to the authenticity of the exhibits. Any
objections to the authenticity of the exhibits shall be heard prior
to trial at a time and place to be set by the Court.
The United States shall submit, for the Court's in camera
review, a proposed witness list with a brief summary of the
expected testimony of each witness and an estimate as to the
amount of time that will be required to present the testimony in
chief of each such witness.

J.

At the commencement of trial, the United States shall furnish
the official court reporter a list of premarked exhibits intended to
be used at trial.

K.

The United States shall retain possession of physical exhibits
(i.e., weapons, ammunition, drugs, etc.) during and after the
trial, pending further orders of the Court.

5.

Any motions in limine shall be filed on or before January 20,

2016. Responses shall be filed on or before January 27, 2016. There shall be
no replies.
6.

All motions, responses and replies made pursuant to this Order

shall be accompanied by a memorandum and shall conform with and are subject to
the requirements and time limitations contained in LCrR12.1, except as otherwise
provided herein.
The Court having heard arguments from counsel as to the matter of
5

Case 3:15-cr-00054-0, IM Document 64 Filed 10/27/15 Page 6 of 6 PagelD #: 237

detention and for the reasons fully stated on the record;
IT IS ORDERED that the Defendant is released on an unsecured
bond in the amount of $50,000.00 with conditions pending further order of the
Court. The Defendant's release is contingent upon the United States Probation
Office's evaluation of the Defendant's proposed residence and the installation of
the location monitoring device.
Counsel hereby waives speedy trial issues from this date until the
date of trial. The Court finds that the ends of justice served by taking such action
outweigh the best interest of the public and the Defendant in a speedy trial,
pursuant to 18 U.S.C. § 3161(h)(7)(A).

Date: October 27, 2015 ENTERED BY ORDER OF THE COURT:
DAVE WHALIN
U NITED STATES MAGISTRATE JUDGE
VANESSA L. ARMSTRONG, CLERK
BY: /s/ Ashley Henry
Deputy Clerk

Copies to:

Counsel of Record
U.S. Probation
Erica Skinner, Case Manager
Jury Administrator

0120

6

